 




    UNITED STATES PATENT
    AND TRADEMARK
    OFFICE
    The Patent Hoteling
    Program Is Succeeding
    as a Business Strategy

    FINAL REPORT NO. OIG-12-018-A
    FEBRUARY 1, 2012


    U.S. Department of Commerce
    Office of Inspector General
    Office of Audit and Evaluation


    FOR PUBLIC RELEASE




 
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington, D.C. 20230




February I, 20 12

MEMORANDUM FOR:               David Kappas
                              Under Secretary of Commerce for Intellectual Property
                                    and Director of the U.S. Patent and Trademark Office

FROM:                         Ron Prevost ~
                              Assistant Inspector ~;;r;r"Eco~omic
                                     and Statistical Program Assessment

SUBJECT:                      The Patent Hoteling Program Is Succeeding as a Business Strategy
                              Final Report No. OIG-12-0 18-A

We have attached our final report related to our audit of USPTO's Patent Hoteling Program
(PHP). This audit, part of the Office of Inspector General's Fiscal Year 20 I I audit plan,
determined how USPTO measures productivity for its PHP participants and whether USPTO's
data indicate improvement in productivity; the extent that USPTO has achieved its stated cost
savings for the PHP program, including real estate savings; and the extent that USPTO policies
and their implementation provide adequate management controls over the PHP. Our report
presents the findings and recommendations of this audit, conducted under the authority of the
Inspector General Act of 1978, as amended, and Department Organization Order I0-13, dated
August 3 I , 2006.

We found that PHP participants review 3.5 more patent applications per year than their
nonparticipating (but eligible) counterparts, and we attribute the additional output to PHP
participants' allocating a greater proportion of their time to examining patents. We also found
that while USPTO achieves real estate cost savings from PHP, it has not calculated more
comprehensive savings and costs for the program. Our analysis showed that USPTO avoids
costs of approximately $1,710 per PHP participant in the first year in the program and avoids
costs of approximately $3,385 per PHP participant in each subsequent year, mainly due to real
estate savings. We also found that the additional applications reviewed by each PHP participant
can result in an additional $13,373 in expected future revenue for USPTO over a 14-year
period. Finally, we found that USPTO's policies for managing PHP comply with applicable
telework laws and provide reasonable controls and assurances that the program operates
effectively and efficiently.

Our report includes three recommendations to USPTO to (I) conduct a more comprehensive
calculation of costs and savings from PHP; (2) work with the Department of Commerce to
compare best practices from PHP that could aid Department telework programs; and (3)
ensure that internal controls are in place to allow only eligible patent examiners to participate
in PHP and documentation is maintained.
Your January 18, 20 12, response concurs with our draft report's recommendations and outlines
steps USPTO is taking to address these issues. We also received verbal technical comments
and made changes as appropriate. In accordance with Department Administrative Order 213-5,
within 60 days of the date of this memorandum, please provide us with an action plan that
responds to all of the report recommendations.

We thank USPTO personnel for the assistance and courtesies extended to my staff during the
review. If you have any further questions or comments about the report, please feel free to
contact me at (202) 482-3052 or Jill Schamberger, Project Manager, at (571) 272-5561.

Attachment

cc: 	 Margaret Focarino, Commissioner for Patents, USPTO
      Patricia M. Richter, Chief Administrative Officer, USPTO
      Bo Bounkong, Associate Commissioner for Patent Resources and Planning, USPTO
      Frederick R. Schmidt, Associate Commissioner for Patent Information Management,
       USPTO 

      Anthony P. Scardino, Chief Financial Officer, USPTO 

      Frank Murphy, Deputy Chief Financial Officer, USPTO 

      Welton Lloyd, Audit Liaison, Office of Planning and Budget, USPTO 

                                   Report In Brief                             F E B R U AR Y 1 , 2 0 1 2




Background                      U.S. PATENT AND TRADEMARK OFFICE
The U.S. Patent and Trade-      The Patent Hoteling Program Is Succeeding
mark Office (USPTO) offers a    as a Business Strategy
variety of telework options
for its employees—from 1 to     OIG-12-018-A
5 days a week. The largest of
these is the Patent Hoteling    WHAT WE FOUND
Program (PHP), where em-        PHP participants review more patent applications than do examiners
ployees work from home at       working at headquarters. Although both groups review patent applications
least 4 days a week and re-     at the same rate, PHP participants spend more time examining
serve office space for when     applications because they use less sick and administrative leave and charge
they need to be present at      less time to administrative tasks. As a result, the average PHP participant
USPTO. At the end of fiscal     spends 66.3 more hours a year examining patents than does the average
year 2011, more than 2,600      in-house examiner; this translates to reviewing about 3.5 more patent
patent examiners were par-      applications a year.
ticipating in PHP. Goals of
PHP include reducing space      USPTO avoids real estate costs through PHP but has not calculated a
and cost requirements while     comprehensive cost analysis of the program. Whereas USPTO reported
improving employee reten-       that it avoids $15.88 million annually in real estate costs by having PHP,
tion and job satisfaction.      we estimated that this amount is approximately $16.84 million as a result
                                of the program.
Why We Did This Review
                                Although PHP incurs additional costs, mainly for IT infrastructure and
PHP is considered one of the    hoteling support services, these costs are significantly offset by avoided
leading government telework     real estate costs as well as revenue generated from the additional patent
programs, yet no comprehen-     applications reviewed.
sive and independent review
                                USPTO has adequate controls over the patent hoteling program in key
of the program’s costs and
                                areas; however, close to 2 percent of a random sample of participants
benefits has ever been com-
                                lacked documentation to support eligibility in the program.
pleted. Because, by law, par-
ticipation in telework pro-     WHAT WE RECOMMEND
grams should not result in
                                We recommend that the Under Secretary of Commerce for Intellectual
diminished federal employee
                                Property and Director, USPTO:
performance, we specifically
looked at the productivity of   1. Conduct a more comprehensive calculation for costs and cost
PHP participants. Also, be-     avoidance related to PHP in order to obtain more accurate estimates of
cause USPTO’s management        the cost and benefits affiliated with this program.
challenges include addressing
                                2. Work with the Department of Commerce to compare best practices
the backlog of about 700,000
                                from the Patent Hoteling Program, which could aid telework programs
patent applications, we
                                within the rest of the Department.
sought to determine if PHP
can help reduce this backlog    3. Ensure that internal controls are in place so that only eligible patent
in a cost-effective way.        examiners participate in PHP and appropriate documentation is
                                maintained.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                 OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
Findings and Recommendations ....................................................................................................................3
 
   1.	  PHP Participants Review More Patent Applications Than Do Examiners Working at 

        Headquarters, but There Are No Differences in Efficiency.......................................................3
 
       A.	  PHP participants review more patent applications...................................................................3
 
       B.	  PHP participants are no more efficient at reviewing patent applications than their 

            counterparts who work at headquarters ...................................................................................4
 
   2.	  USPTO Avoids Real Estate Costs Through PHP but Has Not Calculated a 

        Comprehensive Cost Analysis for the Program ...........................................................................5
 
       A.	  Avoided real estate costs understated........................................................................................5
 
       B.	  Additional and avoided costs associated with PHP ..................................................................5
 
   3.	  Reviewing Additional Applications Generates Revenue That Offsets PHP Costs ................6
 
   4.  USPTO Has Adequate Controls over the Patent Hoteling Program in Key Areas ..............7
 
   Conclusion .....................................................................................................................................................8
 
   Recommendations........................................................................................................................................8
 
Summary of Department and OIG Comments ...................................................................................... 10
 
Appendix A: Objectives, Scope, and Methodology ................................................................................ 11
 
Appendix B: Quantitative Methodology ................................................................................................... 13
 
   Data sources used in both econometric models ............................................................................... 13
 
   Econometric model specification and methodology: Do PHP participants spend more 

    time examining patents?.......................................................................................................................... 13
 
   Econometric model specification and methodology: Are PHP participants more efficient? .... 16
 
   Limitations of our econometric model and data................................................................................ 18
 
Appendix C: Response to OIG’s Draft Report ...................................................................................... 20
 




                                                                                                                    COVER: Detail of fisheries pediment, 
                                                                                                           U.S. Department of Commerce headquarters,
 
                                                                                                                   by sculptor James Earle Fraser, 1934
 




FINAL REPORT NO. OIG-12-018-A
   DEPARTMENT OF COMMERCE
U.S.                                                                                             OFFICE OF INSPECTOR GENERAL


 Introduction
 The U.S. Patent and Trademark Office’s (USPTO’s) telework programs are part of an agency
 business strategy to meet its mission of issuing patents and awarding trademarks. USPTO
 currently offers a variety of telework options for its employees—from 1 to 5 days a week. The
 largest of these telework programs is the Patent Hoteling Program (PHP), in which more than
 2,600 patent examiners were participating at the end of fiscal year 2011. Goals of PHP include
 reducing space and cost requirements associated with increased hiring, while improving
 employee retention and job satisfaction.

 PHP is voluntary for eligible, participating patent examiners.                                       “Hoteling” is a
 USPTO provides equipment and remote access to all relevant
                                                                                                      telework option
 systems; in return, the patent examiners work from home at
                                                                                                      where employees
 least 4 days a week and relinquish their office space at USPTO
 headquarters. Before participating, patent examiners must meet                                       work from home
 certain requirements (see table 1) and complete a 1-week                                             at least 4 days a
 training course. USPTO began PHP in January 2006 with 500                                            week and reserve
 GS-14 and GS-151 patent examiners. Since then, USPTO                                                 office space
 expanded eligibility to include GS-12 and GS-13 patent                                               electronically for
 examiners. Expansion of the program currently is limited—to                                          when they need
 about 500 additional patent examiners each year—because of                                           to be present at
 infrastructure constraints, such as having the requisite training                                    USPTO.
 courses and ensuring system capacity.

 Table 1. PHP Participation Requirements

     GS-12 or above                        ‘Fully Successful’ or higher         Not suspended for disciplinary or adverse
                                           performance rating                   personnel action within the last 12 months

     Worked at least 2                     Passed the Certification Exam, the   Not currently under an oral or written warning
     years at USPTO                        Registration Exam, or have Partial   for performance
                                           or Full Signatory Authoritya

     Source: USPTO
     a
      A Certification Exam is taken before promotion to GS-13 to ensure that the examiner has the knowledge,
     skills, and abilities to perform to the standards of this grade level. A Registration Exam is administered to
     attorneys and agents; those who pass are allowed to represent applicants with prospective or immediate
     business before USPTO in the preparation and prosecution of patent applications. An examiner with permanent
     or temporary Partial Signatory Authority may sign nonofficial actions, while a primary examiner with Full
     Signatory Authority is delegated to represent the Commissioner and sign all actions, including allowances.




                                                             
 1
 The federal government categorizes jobs, level of work, and pay using the General Schedule (GS). The higher the
 GS number, the higher the experience and pay.


 FINAL REPORT NO. OIG-12-018-A                                                                                                   1
   DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL

     USPTO’s PHP is considered one of the leading government telework programs, yet no
     comprehensive and independent review of the program’s costs and benefits has ever been
     completed. Because, by law, participation in telework programs should not result in
     diminished federal employee performance, we specifically looked at the productivity of PHP
     participants. Also, because USPTO’s management challenges include addressing the backlog of
     about 700,000 patent applications, we sought to determine if the Patent Hoteling Program can
     help reduce the backlog in a cost-effective way.

     This audit’s objectives were to determine 1) how USPTO measures productivity for its PHP
     participants and whether USPTO’s data indicate improvement in productivity; 2) the extent
     that USPTO has achieved its stated cost savings for PHP, including real estate savings; and 3)
     the extent that USPTO policies and their implementation provide adequate management
     controls over PHP. Using USPTO data, we analyzed the production levels of PHP participants
     and the costs and savings associated with PHP. We also reviewed and tested policies and
     internal controls relevant to the PHP. For more details on the scope and methodology of our
     audit work, see appendix A.

     We conducted this performance audit in accordance with generally accepted government
     auditing standards. Those standards require that we plan and perform the audit to obtain
     sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
     based on our audit objectives. We believe that the evidence obtained provides a reasonable
     basis for our findings and conclusions based on our audit objectives.
                                   




 FINAL REPORT NO. OIG-12-018-A                                                                         2
   DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL


 Findings and Recommendations
 1. PHP Participants Review More Patent Applications Than Do Examiners
    Working at Headquarters, but There Are No Differences in Efficiency

 A cornerstone of any telework program is that the teleworker must be no less productive at
 home than in the office.2 USPTO collects production data, such as the number of patent
 applications that an examiner reviews.3 It also sets production targets for the number of patent
 applications to be reviewed, based on an examiner’s experience level and the patents’
 complexity. Using this and other USPTO data, we built statistical models that measure the
 effect of PHP participation on production and efficiency, while accounting for other influences
 such as performance rating, grade level, and technology center.4 We tested the reliability of
 the data, and while there were some limitations (see appendix B), we found the data to be
 reliable for use in our models. Based upon our analysis, we found that PHP participants review
 more patent applications than their nonparticipating counterparts, but PHP participants are no
 more efficient at reviewing applications.

        A. PHP participants review more patent applications

 Based on our model, we found participation in PHP to be statistically significant in explaining
 why these examiners spent more time examining patents. Specifically, we found that the
 average PHP participant spends 66.3 more hours5 a year examining patents than a PHP-eligible
 examiner working at headquarters. In other words, an average PHP participant reviews about
 3.5 more applications6 annually—or 4 percent—than a full-time examiner working at USPTO
 headquarters.7
 We found that the average PHP participant allocates a greater proportion of time to examining
 patents. PHP participants use less sick and administrative leave and charge less time to other
 activities not directly defined as examining patents. However, except for sick and
 administrative leave, among the various other activities not directly defined as examining

                                                             
 2
   See Department of Transportation and Related Agencies Appropriations Act of 2001, Pub. L. No. 106-346,
 § 359, 114 Stat. 1356, 1356A-36 (2000); 5 U.S.C. § 6502(b).
 3
   USPTO measures examiners’ production by the number of applications they review. Examiners earn partial
 credit for delivering a preliminary decision on the patentability of an application’s claims. They earn the remaining
 production credit after the review of an application is closed—because an applicant agreed with the examiner’s
 decision, abandoned the patent claim, or because the applicant exhausted the opportunities to persuade the
 examiner and the examiner issues a final rejection.
 4
   USPTO organizes various areas of technologic expertise into technology centers. USPTO currently has nine
 technology centers, including Communications, Chemical & Materials Engineering, and Computer Architecture
 and Software.
 5
   Based on our model, examiners did not work 66.3 more hours of overtime; they allocated 66.3 more hours to
 examining patents out of the total time they worked. 
 6
   USPTO estimates that on average, an examiner eligible to participate in PHP spends 18.84 hours reviewing an
 application.
 7
   Our analysis indicates that the average examiner working from headquarters at GS-12 level or above spends
 1,604 hours a year examining patents, and reviews approximately 85 patent applications per year.  


 FINAL REPORT NO. OIG-12-018-A                                                                                           3
   DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL

 patents, no single activity differed substantially between PHP participants and PHP-eligible
 participants who worked at headquarters.

        B.	 PHP participants are no more efficient at reviewing patent applications than their 

            counterparts who work at headquarters 


 Our second model tested whether there was a significant difference in examiner efficiency, as
 measured by the time it took PHP participants and eligible nonparticipants to review a patent
 application. As in the other model, we accounted for such variables as grade level and
 performance rating. We also controlled for USPTO’s production targets, which are based on
 technology area and the patent examiner’s experience level. We found no significant difference
 in the average efficiency of PHP participants and eligible examiners working at headquarters.
 However, we did find that USPTO’s production targets had a statistically significant and
 substantial effect on the amount of time it actually took to review applications (see appendix
 B).

 Although increased production was not a primary goal of PHP, our analysis found that the
 additional hours that a PHP participant devotes to examining patents could contribute to
 reducing the current backlog of patent applications. Our model estimates that a PHP
 participant removes 2.6 more new applications8 from the backlog each year than an examiner
 working at headquarters; therefore, approximately 2,600 PHP participants would review about
 6,700 additional patent applications in a given year. Given the current backlog of about 700,000
 patent applications (see figure 1), these additional reviews could have a small but nonetheless
 positive effect on reducing the backlog.

 Figure1. Increase in Patent Application Backlog from FY 2000-2010




                                                             
 8
  To assess the impact of PHP on the backlog, USPTO estimates that 73 percent of the applications any examiner
 reviews are being reviewed for the first time, while the remaining 27 percent are applications that were refiled by
 the applicant. We found that the average PHP participant reviews about 3.5 more applications annually; thus, our
 model estimates that a PHP participant will review 2.6 more new applications each year.


 FINAL REPORT NO. OIG-12-018-A                                                                                         4
   DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL


 2. USPTO Avoids Real Estate Costs Through PHP but Has Not Calculated a
    Comprehensive Cost Analysis for the Program

 USPTO has not provided a complete representation of the costs and savings associated with
 PHP. USPTO understated the real estate costs it avoids and did not adequately account for
 additional costs of supporting the program. We calculated a more comprehensive comparison
 of the cost of supporting PHP participants with the cost of full-time examiners at the agency’s
 offices. We found that USPTO’s cost avoidance is $1,710 per PHP participant in the first year.
 In subsequent years, USPTO annually avoids costs of approximately $3,385 per PHP
 participant because of reduced real estate expenses such as rent, taxes, and utilities. USPTO’s
 cost avoidance in the first year is less than subsequent years due to additional costs incurred
 such as information technology (IT) setup and equipment costs to support a PHP participant.

        A.       Avoided real estate costs understated

 USPTO has reported that because of its telework programs, it avoids approximately $19.88
 million annually for office space costs. Of this amount, approximately $15.88 million in real
 estate costs are avoided annually because of the Patent Hoteling Program. USPTO avoids this
 real estate cost because PHP participants relinquish their offices, thus freeing up office space
 and mitigating USPTO’s need to acquire additional office space.

 However, our analysis found that USPTO understated this $15.88 million in avoided real
 estate costs. We estimated that USPTO avoided approximately $16.84 million annually. This
 difference is due to USPTO omitting additional costs of $2.22 million for hoteling suites as well
 as omitting avoided costs of $3.18 million for common space such as hallways and cafeterias. 9

        B.       Additional and avoided costs associated with PHP

 USPTO accounts for most of the real estate costs it avoids as a result of PHP, but the program
 also incurs as well as avoids other costs. As shown in table 2, additional costs include
 computer equipment, support services, and reimbursement for Internet service providers
 (ISP); avoided costs include real estate taxes as well as transit benefits, which are not paid to
 PHP participants.




                                                             
 9
   The amount of common space needed is represented by a rentable/usable (R/U) ratio: the percentage of space
 in a building that is not usable plus a pro rata share of the building’s common areas, expressed as a percentage of
 usable area. USPTO’s current R/U ratio at the Alexandria, Virginia, campus is 1.2.


 FINAL REPORT NO. OIG-12-018-A                                                                                         5
   DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

 Table 2. Comparison of FY 2010 Costs per Patent Examiner for PHP and Non-PHP
 Participants
                                                             First-Year                Subsequent-Year
                                           Non-PHP
  Cost Category          PHP                                 Difference (using         Difference (using
                                           (at USPTO) 
                                                             PHP as base)              PHP as base)
  Real estate,
                                 $1,075            $9,835                  -$8,760                     -$8,760
  taxes, utilities
  IT setup                           1,050                                      +1,050                      n/a
   Equipmenta                        4,880             4,255                     +625                       n/a
   Virtual
                                     4,450                                     +4,500c                 +4,500
   infrastructureb
   Hoteling support
                                     1,675                                      +1,675                 +1,675
   servicesc
   Transit benefits                    230             1,100                      -870                    -870
   ISP
                                        70                                         +70                     +70
   reimbursement
   Total                         $13,480           $15,225                    -$1,710                 -$3,385
 Source: OIG analysis of USPTO data
 a
   Equipment includes computer, dual monitors, printer, webcam, keyboard, speakers, and miscellaneous
 equipment.
 b
   Virtual infrastructure costs are dynamic and reported on as incurred in 2010; however, USPTO is currently
 transitioning to a universal laptop program that will decrease these costs in the future.
 c
   Hoteling support services include telework depot, engineer, VPN, storage, and backup.



 3. Reviewing Additional Applications Generates Revenue That Offsets PHP
    Costs

 While USPTO incurs additional costs to support PHP, mainly for IT infrastructure and hoteling
 support services, our analysis found that these costs are significantly offset by costs avoided by
 PHP and the expected future value of the extra applications reviewed by PHP participants. The
 expected future value for a patent application takes into account that any patent application
 USPTO reviews will generate revenue from a series of fees collected for reviewing and, if
 approved, for issuing and maintaining the patent.

 As shown in figure 2, the expected future revenue for a single patent application reviewed by
 any patent examiner, whether in PHP or not, is $3,924. Given that our model found that a
 PHP participant reviewed an additional 3.5 applications per year, USPTO could receive, for
 each year worked by a PHP participant, an additional $13,373 in future revenue. Because
 different fees are collected over time, the expected future revenue from these applications
 would be realized over 14 years.




 FINAL REPORT NO. OIG-12-018-A                                                                                    6
   DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL

 Figure 2. Expected Future Revenue for a Single Patent Application Reviewed by a Patent
 Examiner




 4. USPTO Has Adequate Controls over the Patent Hoteling Program in Key
    Areas

 USPTO’s policies for managing the PHP comply with applicable telework laws and provide
 reasonable controls and assurances that the program operates effectively and efficiently. The
 applicable laws, guidance, and USPTO policies address a variety of areas, including eligibility to
 telework, training, reimbursement for phone/Internet expenses, and remote access to the
 agency’s IT systems. We did not, however, test the adequacy of the IT policies.

 To implement the PHP, USPTO developed a program that complies with key federal statutes
 related to telework.10 The program addresses employee eligibility and participation, work
 schedules, the application process, and selection criteria. We reviewed a random sample of
 active PHP participants (see appendix A) and found that almost all met eligibility requirements
 for entering the program and USPTO had appropriate documentation to support their
 eligibility. Less than 2 percent of the participants sampled lacked documentation to support
 eligibility or to show that an exemption had been made for their participation. This indicates
 that fewer than 40 PHP participants would lack documentation to support their eligibility in
 the program.

 We examined USPTO’s controls over its Internet service provider (ISP) reimbursement policy
 for PHP participants and found that USPTO has adequate controls in place to prevent

                                                             
 10
  This includes section 359 of the Department of Transportation and Related Agencies Appropriations Act for
 2001, Pub. L. No. 106-346, which requires each executive agency to establish a policy under which eligible
 employees may telework without diminishing employee performance.


 FINAL REPORT NO. OIG-12-018-A                                                                                7
   DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

 improper payments to PHP participants for these reimbursements. Under this policy, the
 agency is permitted to pay PHP participants either a full or partial reimbursement for ISP used
 at their homes for official USPTO purposes. The program allows for reimbursements of up to
 $100 per month. In FY 2010, 354 PHP participants, or approximately 17 percent, opted to
 receive this reimbursement, which cost USPTO a total of almost $152,000. Automated
 controls are in place for the ISP reimbursement system to ensure, among other things, that

        •      only eligible PHP participants are able to submit reimbursement claims;

        •      claims do not exceed the $100 monthly maximum; and

        •      required documentation is attached to the claim.


 In addition, the ISP Reimbursement Facilitator reviews every reimbursement claim to ensure it
 complies with USPTO policy and performs weekly reconciliations to ensure payment accuracy.

 We also reviewed USPTO’s remote access policies to reduce security risks to USPTO systems
 and data. We did not identify any deficiencies in the policies when comparing them against
 government-wide guidance.11 However, we did not test the policies’ adequacy and therefore
 cannot attest to the security and effectiveness of the systems that support PHP.

 Conclusion

 While USPTO had not completed a comprehensive analysis of the costs associated with the
 Patent Hoteling Program, our analysis found that the program provides USPTO with a cost-
 effective tool for meeting its business strategy and mission. We found that PHP participation
 increases production and can remove a small number of additional applications from the
 backlog of patent applications, thus providing a possible means to help reduce the patent
 backlog. USPTO’s production measurement and data systems provide the PHP with the means
 to assess its operations in detail. While these features may not exist to this extent at other
 agencies, the Patent Hoteling Program’s overall design, policies, and controls provide a
 framework for other telework programs to consider.

 Recommendations

 We recommend that the Under Secretary of Commerce for Intellectual Property and
 Director, USPTO:

 1. Conduct a more comprehensive calculation for costs and cost avoidance related to PHP in
    order to obtain more accurate estimates of the cost and benefits affiliated with this
    program.
                                                             
 11
   Federal agencies are required to be in compliance with the National Institute of Standards and Technology’s
 (NIST’s) information security standards for improving the security of federal information and information systems
 (NIST Special Publication 800-53, revision 3, August 2009. Recommended Security Controls for Federal Information
 Systems and Organizations).


 FINAL REPORT NO. OIG-12-018-A                                                                                       8
   DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL



 2. Work with the Department of Commerce to compare best practices from the Patent
    Hoteling Program, which could aid telework programs within the rest of the Department.

 3. Ensure that internal controls are in place so that only eligible patent examiners participate in
    PHP and appropriate documentation is maintained.
  

  




 FINAL REPORT NO. OIG-12-018-A                                                                         9
   DEPARTMENT OF COMMERCE
U.S.                                                           OFFICE OF INSPECTOR GENERAL


 Summary of Department and OIG Comments 

 In responding to our draft report, USPTO concurred with all of our recommendations. We
 have included USPTO’s complete response as appendix C. Separately, the agency verbally
 provided technical comments that we addressed in the report where appropriate.


  




 FINAL REPORT NO. OIG-12-018-A                                                            10
   DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL


 Appendix A: Objectives, Scope, and
 Methodology
 The audit’s objectives were to determine: 1) how USPTO measures productivity for its PHP
 participants and whether the data show improvement in productivity; 2) the extent that
 USPTO has achieved its stated cost savings for the PHP, including in real estate; and 3) the
 extent that USPTO policies and their implementation provide adequate management controls
 over the PHP. We used USPTO data to analyze the production levels of PHP participants and
 their office equivalents, as well as costs and savings associated with PHP. We also reviewed
 and tested policies and internal controls relevant to the PHP. We conducted our work in
 accordance with generally accepted government auditing standards between March and
 November 2011 at USPTO headquarters in Alexandria, Virginia.

 To assess production levels for participants, we obtained USPTO data on all examiners eligible
 to participate in the program. We built statistical models to determine whether hoteling
 increased production and decreased the amount of time an examiner charges to nonexamining
 time. We collected data for production, performance ratings, time and attendance. We tested
 the reliability of the data, and limitations with the data are addressed in appendix B. The data
 came from January 2006—the official launch of the program—through March 31, 2011, and
 included information on many examiners from before and after the examiner joined the
 program. See appendix B for detailed descriptions of the models used for our analysis.

 To determine if USPTO achieved its stated cost savings, we obtained data on PHP’s costs from
 fiscal years 2008-10. The costs included real estate, equipment, and support services. We
 compared costs for an employee who is in PHP versus the costs of that same employee
 working at USPTO. We discussed the relevant costs with federal telework officials at the
 Office Personnel Management, General Services Administration, and Defense Information
 System Administration. In accordance with auditing standards, we verified these costs with
 USPTO and source documentation. We did not examine costs or savings to USPTO related to
 other factors such as attrition, retention, employee satisfaction, and environmental effects.

 To determine the extent to which USPTO policies and their implementation provide adequate
 management controls over the PHP, we assessed USPTO’s telework policies with applicable
 laws and regulations, verified participant compliance with PHP eligibility rules and training
 requirements, assessed internal controls associated with USPTO’s ISP reimbursement
 program, and reviewed USPTO’s IT security policies, with a focus on remote access.

 We assessed current telework policies as well as the various eligibility requirements that have
 been in place since the program began in January 2006 for compliance with applicable laws and
 regulations, including section 359 of the Department of Transportation and Related Agencies
 Appropriations Act for 2001, which requires each executive agency to establish a policy under
 which eligible employees may telework.12 To verify compliance with eligibility rules and training
                                                             
 12
   Pub. L. No. 106-346, § 359, 114 Stat. 1356, 1356A-36 (2000). 


 FINAL REPORT NO. OIG-12-018-A                                                                   11
   DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

 requirements, we selected a representative random sample of 201 active participants in the
 program. 13 Using electronic records from various USPTO sources, we verified whether each
 individual in the sample was eligible to participate in PHP according to the program
 requirements in place at the time they entered the program and whether each of these
 individuals completed required training for the program. We tested the reliability of the data,
 and while there were some limitations (see appendix B), we found the data to be reliable for
 this work.

 To assess the internal controls associated with ISP reimbursement, we met with the
 appropriate agency officials and reviewed the reimbursement process and automated controls.
 We also reviewed USPTO’s IT security policies, with a focus on remote access, and met with
 USPTO officials responsible for enforcing these policies. We did not test the adequacy of these
 policies and therefore cannot attest to the security and effectiveness of the systems that
 support PHP.


  




                                                             
 13
      According to USPTO data, there were 2,344 active, full-time patent examiners in PHP as of March 31, 2011.


 FINAL REPORT NO. OIG-12-018-A                                                                                    12
   DEPARTMENT OF COMMERCE
U.S.                                                                                  OFFICE OF INSPECTOR GENERAL


 Appendix B: Quantitative Methodology 

 We developed two econometric models to explain how participation in PHP affects the
 number of patent applications an examiner reviews and the examiner’s efficiency. Because
 other factors can influence how much time examiners spend reviewing patents, and how
 efficiently, our models controlled for these factors. To test the robustness of the model
 results, we created multiple models using different specifications and measured the effects on a
 biweekly and annual basis; we found our results to be consistent.

 Data sources used in both econometric models

 For both models, we collected data from several USPTO business systems to track production
 and examiner characteristics from the program’s inception in January 2006 through March 31,
 2011. The data for our models came from PHP participants and patent examiners who were
 eligible to participate in PHP but did not to participate.14 The variables and data sources used
 in our models are shown in table 3.

 Econometric model specification and methodology: Do PHP participants spend
 more time examining patents?

 We developed this model to test whether PHP participants spend statistically significantly
 more time examining patents than those who are eligible but do not participate in the PHP
 program. We employed a fixed-effects model15 to control for effects specific to individuals and
 time periods. We controlled for several variables in our analysis because multiple factors could
 influence how much time an examiner spends reviewing patents. The additional variables
 contained in the model are described in table 4.

 Our regression model can be expressed by the following formula:
 YitExamining Hours = B0 + B1itPHP_Participation + B2itSatisfactory_Rating+ B3itGrade +
 B4itTechnology Center + uit

               -       i represents the dummy variable added to control for effects specific to the
                       individual.
               -       t represents the dummy variable added to control for effects specific to the
                       biweekly period.




                                                             
 14
   The models include all patent examiners at GS-12 and higher.

 15
   Fixed-effects regression is a statistical method that controls for stable characteristics of individuals/entities, such

 as work habits, and time periods to eliminate a large potential source of bias.



 FINAL REPORT NO. OIG-12-018-A                                                                                           13
   DEPARTMENT OF COMMERCE
U.S.                                                                                 OFFICE OF INSPECTOR GENERAL

 Table 3. Variables and Data Sources Used in Both Econometric Models
 Variable                   Description                                                    USPTO Data Source
 Hours spent                USPTO tracks the time an examiner spends reviewing             Data Warehouse.
 examining patents          patents in a separate charge code.                             Collects and stores
                                                                                           information from
                                                                                           various business
                                                                                           systems, including time
                                                                                           and attendance records
                                                                                           and performance
                                                                                           ratings. 

 Production units           USPTO measures examiners’ production by the number of          Patent Application and
                            applications they review.                                      Locator Monitoring
                                                                                           System (PALM). Tracks,
                                                                                           monitors, and reports
                                                                                           on patent applications
                                                                                           received by USPTO,
                                                                                           including examiner
                                                                                           production. 

 PHP participation          USPTO tracks when examiners take the training session to       Telework Central.
                            join PHP and when they leave the program. From these           Contains information
                            dates, we determined whether an examiner was                   from examiners who
                            participating in PHP for each biweekly period in our scope.    apply and are accepted
                                                                                           into PHP, including
                                                                                           when they join and
                                                                                           leave the program. 

 Grade                      GS-level                                                       PALM 

 Technology center          The technology center lists the overall organization unit      PALM 
                            where the examiner works. These organizations are
                            grouped by broad technology areas, such as Chemical and
                            Materials Engineering and Biotechnology and Organic
                            Chemistry.  

 Individual fixed           This is a dummy variablea for each examiner based on their     PALM, Data Warehouse
 effects                    examiner identification number. 

 Expected efficiency        USPTO has a standard schedule that identifies how many         PALM 
                            hours an examiner should take to review a patent
                            application. The expected efficiency variable identifies how
                            many production units USPTO expects examiners to
                            complete in an hour, given their grade and technology
                            area. 

 Satisfactory rating        Examiners are rated on a five-tier scale. To be eligible to    Data Warehouse
                            participate in PHP, individuals must achieve a satisfactory
                            rating. A satisfactory rating is a 3 or higher out of 5.  

 Time period, fixed         This is a dummy variablea for each biweekly time period in     PALM, Data Warehouse
 effects                    the data sets. 
 a
     A dummy variable takes the value of “0” or “1” to indicate the absence or presence of a characteristic.




 FINAL REPORT NO. OIG-12-018-A                                                                                       14
   DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL

 Table 4. Additional Variables in Model: Do PHP Participants Spend More Time Examining
 Patents? 

     Type of
                            Variable Name                          Description / Other information
     Variable
 Dependent          Hours spent examining         The time (in hours) charged to examining patents on a biweekly
 Variablea          patents                       basis. USPTO tracks time spent examining patents separately in
                                                  their charge codes.
 Primary Variable   PHP_Participation             Participation in PHP is coded as ‘1’ when the examiner is
 of Interest                                      enrolled in PHP during the biweekly period and as ‘0’ otherwise.


 Other Explanatory Variables Controlled for:
                    Grade                         As examiners progress up the GS scale, they may be required to
                                                  spend more time helping train new examiners and in other non-
                                                  examining activities. The grade of the examiner could thus
                                                  potentially negatively affect how much time they devote to
                                                  examining patents.
                    Technology center where the   The technology center lists the overall organization unit where
                    examiner works                the examiner works. These organizations are grouped by broad
                                                  technology areas.
                    Satisfactory rating           To be eligible to participate in the PHP program, individuals must
                                                  achieve a satisfactory rating. We controlled for the effect of
                                                  individuals who did not receive a satisfactory rating by creating a
                                                  dummy variable coded as ‘0’ when the employee did not receive
                                                  a satisfactory rating (1 or 2) and ‘1’ when the employee received
                                                  a satisfactory rating (3 or above). No rating data were available
                                                  for biweekly observations for FY 2011 because the annual
                                                  performance period was not yet complete when we obtained the
                                                  data.
                    Individual fixed effects      Controls for fixed effects unique to the examiner, such as
                                                  established work habits. The model assumes that there is
                                                  something unique about each person that could explain how
                                                  much time they spend examining patents.
                    Time period fixed effects     We included a dummy variable for each biweekly period because
                                                  certain periods, such as around holidays, could have a significant
                                                  effect on the amount of time an individual devotes to examining
                                                  patents. USPTO implemented changes in the overall performance
                                                  measurement system in spring 2010. The time period fixed-effect
                                                  variables also control for this change.
 a
   The dependent variable is the outcome that will be measured. We measure whether the primary variable of
 interest and other explanatory variables explain the outcome/dependent variable at a statistically significant level.


 Main Results

 As shown in table 5, the model estimates that a PHP participant spends 2.55 more hours per
 pay period examining patents than does a non-PHP participant. Since there are 26 pay periods
 each year, we estimate that a PHP participant spends 66.3 more hours examining patents over


 FINAL REPORT NO. OIG-12-018-A                                                                                           15
   DEPARTMENT OF COMMERCE
U.S.                                                                     OFFICE OF INSPECTOR GENERAL

 the course of a year than does a non-PHP participant. We also found that examiners spend
 less time examining patents as they progress up the GS scale. This is consistent with our
 expectation that examiners at higher grades may devote more time to other activities such as
 training new examiners and substituting for supervisors.
 Table 5. Statistical Significance of Results of Model to Test Hours Devoted to Examining
 Patients (N = 378,270) 

  Variable                                                Coefficient              Standard Errora
  PHP Participation                                                      2.5582             0.1080

  GS-13                                                                  -2.8369            0.1186
  GS-14                                                                  -4.4951            0.1763
  GS-15                                                                 -30.6352            0.8316
  Satisfactory Rating                                                     0.5459            0.1942
  a
    Results are statistically significant to 1 percent.

 Robustness Tests

 To ensure that the results were not a function of PHP employees working more hours than
 non-PHP employees, we re-ran the above model with percentage of time spent examining as
 the dependent variable. These results were consistent with our hypothesis that PHP
 participants spend a larger share of their time examining patents than do non-PHP participants.
 We also tested annual versions of the model, where we aggregated biweekly pay periods by
 individual and year (fiscal and calendar). In these specifications, PHP remained a strong,
 significant predictor of the total number of hours and percentage of time spent on examining
 patents.

 Econometric model specification and methodology: Are PHP participants more
 efficient?

 This model to test examiner efficiency shares many specifications with the previous model. We
 also used a fixed-effects model to control for effects specific to the individual and time period.
 The primary variable of interest in this model remains participation in the PHP program. This
 model includes the explanatory variables of grade and satisfactory rating that were described
 in the previous model description.
 In addition to the variables described in table 6, we also included the following explanatory
 variables as in the other model: Satisfactory Rating, Individual Fixed Effects, and Time Period
 Fixed Effects.




 FINAL REPORT NO. OIG-12-018-A                                                                       16
   DEPARTMENT OF COMMERCE
U.S.                                                                         OFFICE OF INSPECTOR GENERAL

 Table 6. Additional Variable Descriptions in the Efficiency Model
 Type of            Variable Name          Description/Other information
 Variable
 Dependent          Examiner Efficiency    We measured efficiency by the amount of production units an
 Variable                                  examiner produced per hour during a biweekly period. USPTO
                                           measures examiners’ production by the number of applications
                                           they review. Examiners earn partial credit when they deliver
                                           their preliminary decision on the patentability of an application’s
                                           claims and the remaining production credit after the application is
                                           closed.
 Primary Variable   PHP_Participation      The primary variable of interest in this model is participation in
 of Interest                               PHP, coded as ‘1’ when the examiner is enrolled in the PHP
                                           program during the biweekly period and as ‘0’ otherwise.


 Other              Expected Efficiency    USPTO uses an established schedule to identify how many hours
 Explanatory                               an examiner should need to review an application based on the
 Variable                                  technology of the application and the grade of the examiner. To
                                           make it simpler to interpret the effect of USPTO expectations,
                                           we used the expected efficiency defined as the amount of
                                           production units USPTO expects an examiner to complete in an
                                           hour.
 Other              Grade                  As examiners progress up the GS scale, they may become more
 Explanatory                               effective at examining patents. USPTO does expect more
 Variable                                  efficiency from individuals at higher grades, but we wanted to
                                           control whether there was an additional effect related to the
                                           grade of the examiner. This variable was included in the previous
                                           model, but the expected effect is different.

  
 Our regression model can be expressed in the following formula:
 YitExaminer_Efficiency = B0 + B1itPHP_Participation + B2itSatisfactory_Rating+ B3itGrade +
 B4itExpected_Efficiency + uit
            -  The dependent variable in this model is the number of production units earned in a
               pay period divided by the time spent examining patents.
            -	 i represents the dummy variable added to control for effects specific to the
               individual.
            -	 t represents the dummy variable added to control for effects specific to the
               biweekly period.

 Main Results

 As shown in table 7, our results found no statistically significant differences in efficiency
 between the two groups. The model did estimate that the Expected Efficiency Rate established
 by USPTO was a statistically significant and a substantial factor in explaining the actual
 efficiency of the examiner. To interpret the magnitude of the effect of USPTO expectations,
 we would say that, holding all other variables constant, a 1 percent increase in the expected



 FINAL REPORT NO. OIG-12-018-A                                                                                   17
   DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL

 efficiency would result in a 0.72 percent increase in the actual efficiency. Thus, our model
 estimates that actual efficiency is highly sensitive to the expectations established by USPTO.


 Table 7. Statistical Significance of Results of Model to Test Efficiency (N = 374,690)
  Variable                                                           Coefficient            Standard
                                                                                            Error
  PHP Participant                                                                  0.0003         0.0005b

  Expected Efficiency Rate                                                         0.7236         0.0748a

  Satisfactory Rating                                                              0.0068         0.0010a

   GS-13                                                                           0.0008         0.0007b
   GS-14                                                                           0.0043         0.0013a
   GS-15                                                                           0.0164         0.0052a
 a
   Results are statistically significant to 1 percent.
 b
   Results are not statistically significant.


 Robustness Tests

 To ensure that the results were not due to anomalies introduced by measuring efficiency on a
 biweekly basis, we also tested annual versions of the model where we aggregated biweekly pay
 periods by individual and year (fiscal and calendar). Consistent with the results described in
 our report, PHP participation is not a statistically significant factor in predicting efficiency on an
 annual basis.

 Limitations of our econometric model and data

 We used data collected and recorded by USPTO for our models. Relying on this data
 presented three major limitations to our analysis. First, because we relied on self-reported
 data submitted into time and attendance records, we cannot confirm the actual number of
 exam hours and nonexam hours that an examiner worked in a biweekly period. While there
 may be instances where examiners did not accurately portray how they allocated their time,
 there is no basis for assuming that inaccuracies are more prevalent in the groups of examiners
 participating in the PHP versus examiners working from headquarters.

 Second, there is no independent source of information on examiner production and time
 spent examining patents other than the data that are entered into USPTO’s electronic
 systems. Thus, we could not perform tests to trace each transaction to paper documentation.
 We assessed the reliability of our data by conducting numerous electronic tests to ensure the
 data appeared complete and accurate.
 Finally, we did not test the IT security internal controls of each data system, and no published
 reports on data quality existed for these systems during our analysis. We reviewed the overall




 FINAL REPORT NO. OIG-12-018-A                                                                          18
   DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

 data entry policies with system users to ensure that there were segregation of duties.
 However, we did not conduct an extensive test on the overall IT security.
 Given these limitations, we have no evidence that any potential inaccuracies or tampering
 would be more likely to occur with PHP participants versus eligible patent examiners who do
 not participate in PHP. We used the same data that USPTO management relies on to make
 management decisions. Therefore we believe that the data is sufficiently reliable to assess the
 differences between examiners in the PHP program and those who work at headquarters.
 When interpreting our productivity analysis, it is important to recognize the limits of
 generalizing our model’s results to other workplaces. USPTO has unique features, such as
 explicit, measurable performance expectations and extensive tracking of production. While
 our results explain the effect of the PHP program from January 2006 to March 31, 2011, the
 results of our work will need to be replicated in other hoteling programs before it is
 appropriate to generalize these findings to other workplaces.




 FINAL REPORT NO. OIG-12-018-A                                                                     19
   DEPARTMENT OF COMMERCE
U.S.                                                                                               OFFICE OF INSPECTOR GENERAL


 Appendix C: Response to OIG’s Draft Report 


                                                           ~
                                                           ....
                                                            ~ ~~
                                 UNITED STATRS I' ATENT AND TRADE"ARK OFFICE
                                      \IWOO StC.~'1'.UV or CCIMMiat'l: POIIIIf~ Plttwt~rv AM>
                                       0.lCrultOFl1-IE l.N'tr.oSlAT'L'S PAft.'\-r AMb ~alt0ffw;e




                                                                                           JAN I 8 2012


          MEMORANDUM FOR Ron Prevost
                                      Assistam Inspector General for Economic and
                                     Statistical P~ogrt
          FROM:
                                      D-......... 1(-
                                      Margaret A. F rino '
                                                                            r:.-
                                      Commissioner for Patents
          SUBJ ECT:                  Response to Draft Repon: "United States Patent and Trademark
                                     0/fict: The Paten! llottling Program is Succeeding as a Busintss
                                     Sirategy

          Executive S ummary

          Thank you for your n:vicw of the United States Patent and Trademark Office's (USPTO)
          teleworking program policies and implementation process. We appreciate the effon you and
          your •1afThave made in reviewing the Patent Hoteling Program (PHP), including the associated
          cost savings and business strategy for over 2,600 participants through fiscal year 20 II . We have
          carefully considen:d the three recommendations made in the subject draft repon.
          The USPTO believes our implementation and progn:ss in this telcworking program is recognized
          as o model for other federul agencies to consider as a best practice. We are prood of the
          contributions made thus far from our participants, which we believe will assist in achieving our
          strategic goals and mission.

          Our response to each n:commendation is discussed in detail below. We have no technical
          comments to provide for this report.
          Res pon ~e   to Resommsndationlf

          IG Recommtndutlon that the U11der Secretary qfCommtrcefor Jntel/octual Property and
          Director ofUSPTO (/): Conduct a more comprehensive calculation for costs and cost
          ovoidunce related to the PHP in order to obtain more accurate estimates of the cost and benefits
          affiliated with this program.

          USPTO Response:
          The USPTO concurs with this recommendation. Tbe USPTO bas recently undertal<en an
          assessment of the costs and cost avoidance associated with the PHP as part of the Cost Benefit
          Analysis for the Telework Enhancement Act Pilot Program that has recently been approved by
          the General Services Administration. We will review the dato we have collected as it applies to


                                   P.O. Boll t450, Ato.onortt_. Vlrgin1122313- '~ ·wm.us.,ro.oov




 FINAL REPORT NO. OIG-12-018-A                                                                                              20
   DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL



     the entire hoteling program as well as reassess our fmdings in other an:as of cost and cost
     avoidance in light of the findings of this Inspector General (!G) report. We appreciate the
     feedback provided by the IG. The infonnation will be helpful as the USPTO.seeks to continually
     improve our telework programs.

     JG Recommendation titat the Undu Secretary for Commerce for Intellectual Proptrty and
     Director of US PTO (2): Work with the Department of Commerce to compare best practices
     from the Patent Hotcling Program, which could aid telework programs within the rest of the
     Department.

     USPTO Response:
     The USPTO concurs with this recommendation. The USPTO works regularly with the
     Department of Commerce (DOC) on depamnental and bureau-speci fic telework program issues
     and implementation. We have frequent informal interaction with various depamncntal and
     bureau staff members in addition to both hosting and participating in more formal events.

     To date, the USPTO has held two telework workshops ~-pecifically designed for DOC
     organizations. These workshops were developed in response to the numerous questions received
     by the USPTO regarding the lessons learned from USPTO's telework and hoteling programs.
     The goal of each workshop \vas to better educate DOC telework points of contact with regard to
     gathering/evaluating pertinent telework data, creating bureau tclework policies and telework
     Web site, commWlicating telework infom1ation bureau-wide, developing data-collecting tools,
     and designing an infrastructure to support robust telework initiatives.

     Workshop anendees included representatives from DOC-· International Tmde Administration
     (ITA), Census, Economic Development Administration (EDA), National Oceanic and
     Atmospheric Administration (NOAA), and Nationallnstitute of Standards and Technology
     (NlST). Agenda items included an overview of tclework at the USPTO, a discussion of the
     enterpri se-wide telework policy, telework tools, gathering and analy-Ling telework statistics,
     developing a telework Web site and communicating information agcncywidc, o demonstration of
     the telework database, developing an IT infrastructure to support a telework strategy, the Office
     of Personnel ~anagement (OPM) Telework Data Call, and Q&A panels on emerging Federal
     telework program issues.

     The USPTO looks forward to continuing our work with depamnental colleagues in the
     furtherance of telework throughout DOC. We have committed to planning and hosting quarterly
     departmental telework workshops going forward and will continue to be available to consult on
     an individual basis, as needed.

     IG Recommendation that the Under S ecretary for Commerce f or Jntel/ecfuaf Property and
     Director of USPTO (3): Ensure that intemal controls arc in place so that only eligible patent
     examiners participate in PIIP and appropriate documentation is maintained.

     USPTO Response:
     l'he USPTO concurs with this recommendation. Patents in is the process of revie,.~ng the
     eligibility, sign-up procedures, and records retention procedures for the PHP. We will ensure
     that there are procedures in place to fully reflect the eligibility information for all PHP
     participants.

                                                                                                          

  



 FINAL REPORT NO. OIG-12-018-A                                                                               21
   DEPARTMENT OF COMMERCE
U.S.                                 OFFICE OF INSPECTOR GENERAL




                                                     

  




                                  




 FINAL REPORT NO. OIG-12-018-A                                22
